                        April 30, 2001


                                                                  (b) (6)

                        SUBJECT: Review of Payment Requests by Neal R. Gross
                                 and Company, Incorporated Under Contract
                                 102590-98-P-0751
                                 (Report Number CA-MA-01-002)

                        This report presents the results of our review of payment
                        requests by Neal R. Gross and Company, Incorporated, a
                        contractor awarded contract 102590-98-P-0751. This
                        review responds to a request from a Postal Service
                        contracting officer, Supplies, Services, and Equipment
                        Purchasing.

Background              On January 13, 1998, the Postal Service awarded a 3-year
                        contract to Neal R. Gross and Company, Incorporated for
                        court reporting and stenographic services throughout the
                        United States. The contractor requested $1,418 for travel
                        expenses incurred by court reporters for three trips to Great
                        Falls, Montana; Albuquerque, New Mexico; and Pueblo,
                        Colorado. The contracting officer requested that the Office
                        of Inspector General conduct a review of the contract terms
                        and conditions to determine if the contractor’s requests for
                        travel expenses for the three trips are allowable.

Objective, Scope, and   The objective of the review was to determine whether three
Methodology             payment requests totaling $1,418 from Neal R. Gross and
                        Company, Incorporated for court reporting and stenographic
                        services are allowed under the terms and conditions of
                        contract 102590-98-P-0751.

                        We reviewed contract 102590-98-P-0751 as well as
                        subsequent contract modifications regarding travel
                        expenses. We also interviewed the president of Neal R.
                        Gross and Company, Incorporated, the Postal Service
                        contracting officer, and court reporters in the Great Falls,
Review of Payment Requests by Neal R. Gross	                                               CA-MA-01-002
 and Company, Incorporated Under Contract
 102590-98-P-0751


                              Montana, area. We selected the Great Falls area because
                              it represented approximately 77 percent of the total cost of
                              the three trips in question.

                              This review was conducted from November 2000 through
                              April 2001 in accordance with the President’s Council on
                              Integrity and Efficiency, Quality Standards for Inspections.
                              We discussed our conclusions and observations with
                              appropriate management officials.

 Observations 	               It is our opinion that the contractor’s request for travel
                              expenses for the three trips are allowable. Section B,
                              Part XII, of the contract states, in part, that the contractor
                              shall by use of direct employees or by subcontract provide
                              ordered reporting services at any location required by the
                              Postal Service. If services are required outside of the
                              Washington, D.C. metropolitan area or outside a 50-mile
                              radius of the reporter’s headquarters, travel cost
                              authorization will be approved only if the contractor
                              establishes to the satisfaction of the contracting officer that
                              services could not be obtained by subcontract in the
                              required location. In addition, travel costs will be authorized
                              only to the required location from the next nearest location
                              from which services could be obtained. Further, travel
                              authorization is required from the contracting officer in
                              advance of the proceedings.

                              The contract also states that the contractor shall submit to
                              the contracting officer with each request for travel (1) the
                              estimated cost for travel and per diem that would be
                              incurred and invoiced if travel is approved and (2) indicate if
                              the reporter is to be provided by the contractor directly or by
                              subcontract. The contracting officer may require the
                              contractor to furnish the subcontract entered into in support
                              of the travel request. A written certification shall be
                              submitted with each invoice for each approved travel
                              request containing the following:

                                      This is to certify that in accordance with paragraph XIIA – Travel
                                      of the contract (Statement of Work), reporting service could not
                                      be obtained in the required location or nearer location for
                                      proceeding.




                                                  2
Review of Payment Requests by Neal R. Gross                                       CA-MA-01-002
 and Company, Incorporated Under Contract
 102590-98-P-0751


                              In each of the three payment requests, the contractor
                              obtained advance approval from the contracting officer to
                              take the trips.

                              The contracting officer and the contractor do not agree on
                              the interpretation of travel requirements under Section B, XII
                              of the contract. The contracting officer stated that the
                              contractor is required to subcontract locally if he does not
                              have an established subcontract relationship in a particular
                              area. The contractor stated that the contract does not
                              specifically state that he must establish a subcontract
                              relationship in an area in which he does not already have an
                              established subcontract relationship. The contractor
                              contends that he has acted within the letter of the contract in
                              that he did not have established subcontract relationships in
                              the areas in question and he requested and received
                              advance approval for travel. Based upon his interpretation
                              of the contract, the contractor did not attempt to subcontract
                              locally.

                              The contract is silent as to the steps the contractor is
                              required to take to secure the services of a local court
                              reporter if the contractor did not already have a subcontract
                              relationship in a particular area. To clarify travel
                              requirements, the subsequent contract which was not given
                              to Neal R. Gross and Company, Incorporated, was rewritten
                              to state that the contractor had to submit in writing to the
                              contracting officer’s representative “statement of reasons
                              why the service cannot be performed by a subcontractor in
                              or within 50 miles of the required location and the efforts of
                              the contractor to find a subcontractor in the required
                              location.” This language was not in the contract awarded to
                              Neal R. Gross and Company, Incorporated.

                              As a result, Neal R. Gross and Company, Incorporated
                              complied with the terms and conditions of contract 102590-
                              98-P-0751 and should be reimbursed for travel expenses
                              incurred for the three trips in question.

                              We appreciated the cooperation and courtesies provided by
                              your staff during the review. If you have any questions,




                                               3
Review of Payment Requests by Neal R. Gross                                   CA-MA-01-002
 and Company, Incorporated Under Contract
 102590-98-P-0751


                              please contact Hermeta Martin-Reddon, acting director,
                              Contracts or me at (703) 248-2300.



                              Billy Sauls
                              Assistant Inspector General
                               for Business Protection

                              cc: 	Keith Strange
                                  John R. Gunnels




                                              4
